March 27, 2002

THOMAS G. DAY
VICE PRESIDENT, ENGINEERING

SUBJECT: Audit Report – Postal Service Test, Evaluation, and Quality
         (Report Number DA-AR-02-004)

This report presents the results of our self-initiated audit of the Postal Service Test,
Evaluation, and Quality group (Project Number 01BA008DA000). The objectives of this
audit were to: (1) assess the functioning of Test, Evaluation, and Quality, and
(2) evaluate the effectiveness of the group in performing its mission within the Postal
Service.

The audit revealed Test, Evaluation, and Quality did not have formal written policies or
procedures to develop documents used for performing tests and inspections of capital
equipment. In comparison, benchmarking revealed that formal policies and procedures
were a best business practice. Test, Evaluation, and Quality did not provide an
independent assessment of programs. The group did not have any authority for
program approval and assessment. Quality’s lack of budget control further limited the
group’s independence and ability to evaluate programs.

We provided management with four recommendations regarding the Test, Evaluation,
and Quality group. These recommendations included establishing formal policies and
procedures, modifying the organizational reporting structure of the group, establishing
roles and responsibilities and providing the Quality group with an independent budget.
Management agreed with recommendations 1 and 3 to establish formal policies and
procedures and to define roles and responsibilities. However, management disagreed
with recommendation 2 to modify the organizational reporting structure and
recommendation 4 to provide the Quality group with an independent budget.
Management believed the current reporting structure provided sufficient independence
for the testing process. They also believed the budget for the Quality group was
appropriate. We consider recommendation 2 significant and plan to pursue this
recommendation through the audit resolution process. We do not consider
recommendation 4 significant and do not plan to pursue it through the audit resolution
process. Management’s comments and our evaluation of these comments are included
in this report.
The OIG considers recommendations 1, 2, and 3 significant and, therefore, requires
OIG concurrence before closure. Consequently, the OIG requests written confirmation
when corrective action(s) are completed. These recommendations should not be
closed in the follow-up tracking system until the OIG provides written confirmation that
the recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff during the review.
If you have any questions or need additional information, please contact Tracy LaPoint,
director, Developmental, at (703) 248-2100, or me at (703) 248-2300.



Ronald D. Merryman
Acting Assistant Inspector General
 for eBusiness

Attachment

cc: 	John A. Rapp
    Thomas P. Shipe
    Sammy J. Seals
    Susan M. Duchek
Postal Service Test, Evaluation, and Quality                             DA-AR-02-004




                                         TABLE OF CONTENTS

 Executive Summary
                                                      i

 Part I

 Introduction
                                                           1

     Background                                                          1

     Objectives, Scope and Methodology                                   2

     Prior Audit Coverage                                                3


 Part II

 Audit Results                                                           4


     Lack of Policies and Procedures                                     4

        Best Business Practices                                          4

     Recommendation                                                      5

     Management’s Comments                                               5

     Evaluation of Management’s Comments                                 6


     Lack of an Independent Assessment                                   7

        Best Business Practices                                          7

        Reporting Structure                                              7

        Best Business Practices                                          8

        Quality’s Budget                                                 9

     Recommendations                                                     9

     Management’s Comments                                              10

     Evaluation of Management’s Comments                                10


 Appendix A: Companies Contacted for Benchmarking                       14

 Appendix B: Management’s Comments                                      15





                                               Restricted Information
Postal Service Test, Evaluation, and Quality                                               DA-AR-02-004




                                         EXECUTIVE SUMMARY
 Introduction                        Test, Evaluation, and Quality’s role is to conduct tests and
                                     compile data in support of equipment and systems
                                     acquisition. Two distinct subgroups exist within the group:
                                     (1) Test and Evaluation, and (2) Quality. Test, Evaluation,
                                     and Quality reports to Technology Acquisition Management
                                     within Engineering. The objectives of this self-initiated audit
                                     were to: (1) assess the functioning of Test, Evaluation, and
                                     Quality; and (2) evaluate the effectiveness of the group in
                                     performing its mission within the Postal Service.

 Results in Brief                    Test, Evaluation, and Quality did not have formal written
                                     policies or procedures to develop documents used for
                                     performing tests and inspections of capital equipment. In
                                     comparison, benchmarking revealed that formal policies and
                                     procedures were a best business practice. The absence of
                                     any procedures resulted in a lack of completeness,
                                     consistency and objectivity in test plans, testing processes,
                                     summary reports, and records maintenance.

                                     Test, Evaluation, and Quality did not provide an
                                     independent assessment of programs. Unlike other testing
                                     and quality groups from benchmarked organizations, Test,
                                     Evaluation, and Quality did not have any authority on
                                     program approval and assessment. Quality’s lack of budget
                                     control further limited the group’s independence and ability
                                     to evaluate programs.

 Summary of                          We provided management with four recommendations
 Recommendations                     regarding the Test, Evaluation, and Quality group. These
                                     recommendations included establishing and adopting formal
                                     policies and procedures, modifying the organizational
                                     reporting structure of the group to assure an independent
                                     and thorough assessment of capital equipment programs,
                                     establishing roles and responsibilities, and providing the
                                     Quality group with an independent budget.

 Summary of                          Management agreed with recommendations 1 and 3 to
 Management’s                        establish policies and procedures and define roles and
 Comments                            responsibility of the group. However, they disagreed with
                                     recommendation 2 to modify the organizational reporting
                                     structure. Management stated that Test, Evaluation, and
                                     Quality was independent of program management and
                                     added a dual reporting relationship was not necessary.
                                     Management also disagreed with recommendation 4 to

                                                            i
                                               Restricted Information
Postal Service Test, Evaluation, and Quality                                             DA-AR-02-004



                                     provide the Quality group with an independent budget.
                                     Management agreed this control was important but stated it
                                     currently exists. Additionally, management questioned the
                                     appropriateness of our best practices study. Management’s
                                     comments, in their entirety, are included in Appendix B of
                                     this report.

 Overall Evaluation of               Management’s planned actions to formally document
 Management’s                        policies and procedures and establish roles and
 Comments                            responsibilities are responsive to our recommendations.
                                     However, we plan to pursue recommendation 2, to modify
                                     the organizational reporting structure through the audit
                                     resolution process.

                                     We believe a direct report to the vice president,
                                     Engineering, would enhance the current reporting structure
                                     to provide benefits including an independent report of test
                                     results, prevent suppression of unfavorable test results, and
                                     provide discipline and accountability through a formal
                                     reporting process. Since Test, Evaluation, and Quality was
                                     not responsible for data analysis and did not report to an
                                     independent entity high enough in the organizational
                                     hierarchy to be effective, there was no assurance that
                                     programs were objectively reviewed.

                                     We do not agree with management questioning the
                                     appropriateness of the best practices study. In fact, the vice
                                     president, Engineering, suggested the Office of Inspector
                                     General consider this approach. Given the objective of the
                                     audit was to evaluate the functioning and effectiveness of
                                     Test, Evaluation, and Quality, it was appropriate that we
                                     contacted Fortune 500 companies that purchased capital
                                     equipment used in operating processes.

                                     We do not consider recommendation 4 significant and
                                     therefore, do not plan to pursue it through the audit
                                     resolution process.




                                                            ii
                                               Restricted Information
Postal Service Test, Evaluation, and Quality	                                              DA-AR-02-004




                                                INTRODUCTION
 Background	                         The Test, Evaluation, and Quality group reports to program
                                     management within Technology Acquisition Management; a
                                     subgroup of Engineering. Overall, Technology Acquisition
                                     Management oversees the acquisition, testing and
                                     acceptance, deployment, and integration of new technology
                                     systems to provide for increased efficiencies in mail
                                     processing and distribution, delivery, and material handling
                                     operations. These systems include complex automation
                                     equipment, advanced mechanization, material handling,
                                     robotics and vehicles.

                                     More specifically, Technology Acquisition Management
                                     develops contract specifications, deployment strategies, and
                                     schedules. The group reviews and evaluates technical
                                     systems, monitors contract performance and provides sites
                                     with technical information necessary to prepare for delivery,
                                     installation, testing, and acceptance of equipment.

                                     The groups reporting to Technology Acquisition
                                     Management are:

                                            ♦    Automation Equipment
                                            ♦    Material Handling Deployment
                                            ♦    Package Sorting and Customer Service Systems
                                            ♦    Test, Evaluation, and Quality

                                     Test, Evaluation, and Quality’s role is to conduct tests and
                                     compile data in support of equipment and systems
                                     acquisition. Specifically, they provide input to the test plan,
                                     organize test teams and testing processes, and perform
                                     setup and data collection.

                                     Two distinct subgroups exist within Test, Evaluation, and
                                     Quality: (1) Test and Evaluation, and (2) Quality. The Test
                                     and Evaluation group is responsible for ensuring that
                                     equipment testing is fair, unbiased and thorough enough to
                                     adequately test the vendor’s equipment. The Quality group
                                     primarily observes selected vendor processes and tests
                                     equipment at deployment sites.




                                                             1
                                                Restricted Information
Postal Service Test, Evaluation, and Quality                                              DA-AR-02-004




 Objectives, Scope,                  The objectives of this audit were to: (1) assess the
 and Methodology                     functioning of Test, Evaluation, and Quality; and
                                     (2) evaluate the effectiveness of the group in performing its
                                     mission within the Postal Service. To assess the
                                     functioning of Test, Evaluation, and Quality, we determined
                                     whether they performed an independent assessment of
                                     equipment and controlled funding for program testing and
                                     quality functions.

                                     To determine whether Test, Evaluation, and Quality
                                     performed an independent assessment of programs, we
                                     observed various types of testing including: proof of
                                     concept; competitive; first article; and, quality deployment
                                     acceptance testing. In addition, we interviewed Postal
                                     Service officials within Engineering and reviewed relevant
                                     documentation including test plans, statements of work, and
                                     summary test reports.

                                     To evaluate whether Test, Evaluation, and Quality
                                     controlled program funding to provide an independent
                                     assessment of programs, we interviewed Postal Service
                                     officials within Test, Evaluation, and Quality and Technology
                                     Acquisition Management. In addition, we reviewed
                                     documentation including program correspondence and
                                     quality funding requests.

                                     To evaluate the effectiveness of Test, Evaluation, and
                                     Quality in performing its mission, we assessed the
                                     adequacy of policies and procedures. In assessing policies
                                     and procedures we reviewed informal quality guidelines as
                                     well as test plans and summary reports prepared by Test,
                                     Evaluation, and Quality.

                                     In order to determine best business practices, we
                                     benchmarked against Fortune 500 companies. Assuming
                                     the Postal Service were a private company, with revenues
                                     in excess of $64.5 billion in fiscal year (FY) 2000, it would
                                     rank 11th in the Fortune 500 listing. We contacted
                                     46 companies (See Appendix A) to discuss the structure
                                     and function of their testing and quality groups for capital
                                     equipment. Eighteen companies shared information.
                                     Companies contacted for benchmarking were judgmentally
                                     selected from the top 200 of the Fortune 500 ranking by
                                     revenue for FY 2000.



                                                            2
                                               Restricted Information
Postal Service Test, Evaluation, and Quality	                                          DA-AR-02-004



                                     The audit was conducted between April 2001 and
                                     March 2002 in accordance with generally accepted
                                     government auditing standards and included such tests of
                                     internal controls, as were considered necessary under the
                                     circumstances. We discussed our conclusions and
                                     observations with appropriate management officials and
                                     included their comments, where appropriate.

 Prior Audit Coverage 	 The Office of Inspector General (OIG) has conducted
                        one previous audit relating to Test, Evaluation, and Quality,
                        Decision Analysis Report Process (DA-AR-01-005,
                        dated September 27, 2001). This report contained
                        two recommendations concerning test plans, summary data
                        and analysis of test results. Management agreed with the
                        recommendations for sponsors to provide this information to
                        ensure projections in Decision Analysis Reports are
                        reasonable.

                                     Additional research did not indicate any reviews by the
                                     Postal Inspection Service or General Accounting Office.




                                                             3
                                                Restricted Information
Postal Service Test, Evaluation, and Quality                                                           DA-AR-02-004




                                               AUDIT RESULTS
    Lack of Policies and             Test, Evaluation, and Quality did not have formal written
    Procedures                       policies or procedures to develop documents used for
                                     performing tests and inspections of capital equipment.
                                     Benchmarking revealed that formal policies and procedures
                                     were a best business practice. The absence of any
                                     procedures resulted in a lack of completeness, consistency
                                     and objectivity in test plans, testing process, summary
                                     reports, and records maintenance.

    Best Business                    Benchmarking revealed all 18 companies1 had procedures
    Practices                        to inspect, test, and verify products met stated requirements.
                                     Specifically, companies had formally approved internal
                                     policies to define testing and quality procedures for
                                     equipment procurements. In addition, all companies
                                     required documentation of program results. Of the
                                     18 companies, 15 created formal reports, while the
                                     remaining 3 used other formal procedures to communicate
                                     and document results.

                                     Due to the fact that all 18 Fortune 500 companies had
                                     policies and procedures, the OIG considered this a best
                                     business practice. Policies and procedures provide
                                     organization, completeness, and consistency for tests,
                                     summary data, and analyses. For example, one company’s
                                     procedure was used to “establish a uniform acceptance
                                     criteria for procurement of major capital equipment and
                                     tooling.” Another company’s procedure stated, “test results
                                     shall be documented . . . to ensure that test requirements
                                     have been satisfied.” Additionally, best practices indicated
                                     that all companies had record retention requirements.
                                     Product inspection and testing records were kept in hard
                                     copy or electronic files that were accessible for reference.

                                     We found that the Postal Service did not follow the best
                                     business practice of requiring formal internal testing and
                                     evaluation policies and procedures. The lack of policies and
                                     procedures may have contributed to Test, Evaluation, and
                                     Quality’s inability to provide the OIG with an inclusive list
                                     of FY 2000 programs tested. We compiled a list of
                                     22 programs2 and requested test plans and results for each
                                     program. However, Test, Evaluation, and Quality was
                                     unable to provide requested information for all programs

1
    A total of 18 companies shared information with the OIG regarding testing and quality functions.
2
    The list was compiled from the best available information and may not be all-inclusive.


                                                            4
                                               Restricted Information
Postal Service Test, Evaluation, and Quality	                                               DA-AR-02-004



                                     identified by the OIG. As a result, our review was limited
                                     because adequate information was not available.
                                     Therefore, we were not able to provide a complete
                                     evaluation of the effectiveness of Test, Evaluation, and
                                     Quality performing its mission within the Postal Service.
                                     Test, Evaluation, and Quality could provide a useful
                                     management tool by keeping accurate and complete
                                     program inventories.

                                     Based on the limited information provided, we found that
                                     reports and test plans were inconsistent. Our review
                                     disclosed that these reports and test plans were based on
                                     the employee’s previous reports and test plans. The detail
                                     and content of reports reviewed varied greatly and in some
                                     instances no reports were prepared at all. For example, the
                                     reports did not indicate if the objectives of the test, including
                                     performance elements were achieved. Given that the
                                     mission of Test, Evaluation, and Quality is to provide an
                                     unbiased and thorough review of equipment programs, it is
                                     imperative that they are able to provide complete, consistent
                                     and objective test plans, processes and reports. Best
                                     business practices of top performing companies illustrated
                                     the importance of policies and procedures in successfully
                                     evaluating equipment programs.

 Recommendation                      We recommend the vice president, Engineering:

                                          1.	 Develop and formally adopt policies and procedures
                                              in accordance with best business practices to
                                              establish: (a) procedures to develop documents used
                                              for performing tests and inspections of capital
                                              equipment; and, (b) policies to specify reporting
                                              requirements and documentation of program results.

 Management’s                        Management agreed with the recommendation and stated a
 Comments                            complete effort would be implemented within 6 months or by
                                     September 1, 2002.

                                     Management commented on the OIG’s statement that Test,
                                     Evaluation, and Quality was not able to provide the OIG with
                                     an inclusive list of FY 2000 programs tested and test plans
                                     and reports for each of the programs. Management
                                     contended this statement was misleading because OIG




                                                             5
                                                Restricted Information
Postal Service Test, Evaluation, and Quality                                             DA-AR-02-004




                                    representatives failed to obtain information for six tests, and
                                    five tests were not completed or data was provided to a
                                    group outside of Technology Acquisition Management for
                                    analysis.

                                     In addition, management requested detailed information
                                     regarding the OIG’s best practice study to assist in
                                     developing policies and procedures.

 Evaluation of                       Management’s planned actions to document policies and
 Management’s                        procedures are responsive to our recommendation.
 Comments
                                     We do not agree with management’s comments concerning
                                     the list of FY 2000 programs. Since Test, Evaluation, and
                                     Quality could not provide a list of FY 2000 programs tested,
                                     the OIG created a list from documentation provided by the
                                     group. More importantly, it is our contention that the
                                     organization responsible for testing programs should
                                     maintain a complete listing as well as the individual records
                                     of test plans and results.

                                     In response to management’s request for more detailed
                                     findings of the OIG’s best practice study, OIG
                                     representatives are willing to meet with management to
                                     discuss results in further detail.




                                                            6
                                               Restricted Information
Postal Service Test, Evaluation, and Quality                                                DA-AR-02-004




    Lack of an                       Test, Evaluation, and Quality could not provide an
    Independent                      independent assessment of programs. Unlike other testing
    Assessment                       and quality groups from benchmarked organizations, Test,
                                     Evaluation, and Quality did not have any authority on
                                     program approval and assessment. In addition, Quality’s
                                     lack of budget control further limited the group’s
                                     independence and ability to evaluate programs.

    Best Business                    During our benchmarking we learned that 16 out of 18 of the
    Practices                        benchmarked companies had testing and quality groups that
                                     were considered to operate as independent functional units.
                                     These groups were independent of program management or
                                     had a direct report to an authority higher than program
                                     management.

                                     All testing and quality groups within the 18 benchmarked
                                     companies had significant involvement in determining
                                     whether equipment was accepted or rejected. The testing
                                     and quality groups were required to approve equipment
                                     before final acceptance or worked in conjunction with
                                     program management and engineering experts to make an
                                     acceptance decision.

                                     In a study performed for the Department of Defense, dated
                                     June 1, 1999, regarding test and evaluation procedures, a
                                     best business practice was to “ensure the test organization
                                     reports high enough in the management hierarchy to be
                                     effective.”3 Furthermore, Test, Evaluation, and Quality staff
                                     indicated that Test, Evaluation, and Quality could perform
                                     more effectively if they reported to an authority other than
                                     program management. Using our benchmarking results,
                                     Test, Evaluation, and Quality should at a minimum report
                                     concurrently to the vice president, Engineering.

    Reporting Structure              Test, Evaluation, and Quality did not perform an
                                     independent assessment of programs. The group tested
                                     equipment and reported unanalyzed performance data to
                                     program management; and was not responsible for data
                                     analysis or providing an overall evaluation of test results.
                                     Specifically, they had no authority in determining whether
                                     equipment was accepted or rejected. The manager,
                                     Technology Acquisition Management stated that Test,
                                     Evaluation, and Quality was ‘extremely important’ in the data
                                     collection effort for tests. This official added that the group’s
3
    Best Practices Applicable to DoD Developmental Test and Evaluation, June 1, 1999.


                                                            7
                                               Restricted Information
Postal Service Test, Evaluation, and Quality                                             DA-AR-02-004



                                     expertise is in conducting tests and compiling data. Other
                                     than data collection, Test, Evaluation, and Quality did not
                                     have any involvement in whether equipment was accepted
                                     or rejected.

                                     According to Test, Evaluation, and Quality employees,
                                     program management had ultimate authority over program
                                     decisions and information used to justify equipment
                                     acquisitions. Overall, Test, Evaluation, and Quality operated
                                     as a data collection function rather than providing an
                                     evaluation of equipment, an identified best business
                                     practice.

                                     In addition, there was a lack of internal controls within the
                                     reporting structure because there was not a separation of
                                     duties. Program management had the ultimate authority
                                     over program decisions and controlled funding for quality
                                     assurance. Since Test, Evaluation, and Quality did not
                                     report to a level independent of program management, there
                                     were no checks and balances to ensure equipment met
                                     operational requirements.

                                     During our audit the relationship between Economic Value
                                     Added bonuses and equipment deployment was brought to
                                     our attention. Economic Value Added bonuses for Postal
                                     Service management included the number of pieces of
                                     equipment deployed and capital dollars spent. Although we
                                     found no conclusive information that linked actual
                                     deployments of equipment for Economic Value Added
                                     bonuses, there was a perceived conflict of interest. The
                                     manager, Technology Acquisition Management agreed that
                                     this perception was readily apparent. As a result, the
                                     perception exists and management should reassess the
                                     current reporting structure.

 Best Business                       Our benchmarking indicated that 15 companies had
 Practices                           independent budgets for their quality groups. In general,
                                     these budgets were considered independent because funds
                                     were allocated by a source other than program management
                                     and were controlled by the quality group or an entity
                                     independent of the program requiring quality assurance.

                                     In addition to this best business practice, 10 of the
                                     18 companies that shared information stated the program
                                     manager was not able to cut program funding for quality
                                     assurance. Of the remaining companies, six indicated


                                                            8
                                               Restricted Information
Postal Service Test, Evaluation, and Quality	                                                            DA-AR-02-004



                                     that cutting quality funding was unlikely and would be
                                     detrimental to program results due to the importance of
                                     quality assurance in the capital equipment procurement
                                     process.

    Quality’s Budget	                The Quality group’s lack of budget control further limited
                                     their independence. Our review determined this group could
                                     not adequately complete deployment acceptance testing.4
                                     For certain programs, program management requested
                                     Quality to reduce the amount of money needed to complete
                                     testing, or involvement was terminated due to the lack of
                                     sufficient funds.

                                     Funding to support quality assurance functions is committed
                                     in the capital section of each program’s Decision Analysis
                                     Report. However, Quality employees must submit
                                     documentation to program managers requesting these
                                     funds, and allocation approvals are the discretion of program
                                     management. This presents an increased risk that money
                                     allocated for quality functions may be appropriated for other
                                     program needs.

                                     Furthermore, Quality staff indicated that funding was not
                                     always adequate to support quality functions. Since the
                                     Quality group was not always provided adequate funding, in
                                     certain cases equipment was not quality deployment
                                     acceptance tested and management did not have assurance
                                     equipment met operational and performance expectations.

                                     Quality’s ability to adequately support and independently
                                     evaluate programs is compromised because program
                                     management can unilaterally terminate funding for quality
                                     assurance functions.

    Recommendation	                  We recommend the vice president, Engineering:

                                          2.	 Modify the organizational reporting structure of Test,
                                              Evaluation, and Quality to have a direct report to his
                                              office as well as the manager, Technology Acquisition
                                              Management.




4
    Deployment acceptance testing is a final inspection of equipment performed by Quality after deployment.


                                                             9
                                                Restricted Information
Postal Service Test, Evaluation, and Quality                                              DA-AR-02-004




 Management’s                        Management disagreed with our recommendation stating a
 Comments                            dual reporting relationship was not necessary, beneficial, or
                                     practical. Management added it would create confusion,
                                     potentially result in costly program delays, and remove
                                     authority from the group assigned responsibility.

                                     Management also stated that Test, Evaluation, and Quality
                                     was independent of program management and reported
                                     directly to the manager, Technology Acquisition
                                     Management. Further, management stated our conclusion
                                     that Test and Evaluation was not independent was based on
                                     an incorrect belief that they reported to program
                                     management.

                                     Management stated Technology Acquisition Management,
                                     as a whole was responsible for assuring equipment met
                                     expectations. Management added this joint effort was most
                                     effectively and efficiently carried out through the reporting
                                     relationship currently existing within Technology Acquisition
                                     Management.

                                     Management questioned the appropriateness and
                                     thoroughness of benchmarking and indicated that Test,
                                     Evaluation, and Quality was independent of program
                                     management and had a direct report to an authority higher
                                     than program management.

                                     Additionally, management noted they take great comfort in
                                     knowing that after extensive review and observation by the
                                     OIG of its testing efforts and procedures, the OIG did not
                                     uncover any areas of concern.

 Evaluation of                       Management’s comments are not responsive to our
 Management’s                        recommendation. We plan to pursue this recommendation
 Comments                            through the audit resolution process.

                                     We believe a direct report to the vice president, Engineering,
                                     would enhance the current reporting structure to provide
                                     benefits including an independent report of test results,
                                     prevent suppression of unfavorable test results, allow senior
                                     Engineering management to review all critical program
                                     performance information, and provide discipline and
                                     accountability through a formal reporting process.




                                                            10
                                               Restricted Information
Postal Service Test, Evaluation, and Quality                                              DA-AR-02-004



                                     We do not agree with management’s statement that Test,
                                     Evaluation, and Quality is independent of program
                                     management because they report to the manager,
                                     Technology Acquisition. Management did not address the
                                     issue that Test, Evaluation, and Quality’s primary function
                                     was conducting tests and collecting data. Management did
                                     not explain who was independently responsible for data
                                     analysis and providing an overall evaluation of test results.
                                     Since Test, Evaluation, and Quality was not responsible for
                                     data analysis and did not report to an independent entity
                                     high enough in the organizational hierarchy to be effective,
                                     there was no assurance that programs were objectively
                                     reviewed.

                                     We agree that the Technology Acquisition Management
                                     organization was responsible for assuring equipment met
                                     expectations. We agree that there are benefits from
                                     including input from all subgroups within Technology
                                     Acquisition Management. However, Test, Evaluation, and
                                     Quality did not perform an independent assessment of
                                     programs. As a result, the internal control structure for
                                     ensuring vendors met requirements and equipment was
                                     objectively evaluated was weakened. Furthermore, by
                                     enhancing the reporting structure, management can
                                     minimize the perceived conflict of interest of Economic
                                     Value Added bonuses being tied to equipment deployments.

                                     We also do not agree with management questioning the
                                     appropriateness and thoroughness of benchmarking for this
                                     audit. In fact, the vice president, Engineering, suggested
                                     the OIG consider this approach. Management attempted to
                                     challenge the study on the grounds that it included
                                     companies in “industries that are totally unrelated to that of
                                     the Postal Service.” Given the objective of the audit was to
                                     evaluate the functioning and effectiveness of Test,
                                     Evaluation, and Quality, it was appropriate that we contacted
                                     Fortune 500 companies that purchased capital equipment
                                     used in operating processes. The OIG asked each
                                     company the same questions to determine their testing and
                                     quality policies and procedures, roles and responsibilities
                                     and reporting structure. We determined that best practices
                                     were the results shared by nearly all companies contacted.




                                                            11
                                               Restricted Information
Postal Service Test, Evaluation, and Quality	                                              DA-AR-02-004



                                     Finally, we are concerned about management’s statement
                                     that they take great comfort that the OIG did not uncover
                                     any areas of concern. We believe the report contains
                                     significant matters that warrant management’s attention.
                                     We plan to follow-up on management’s corrective actions to
                                     our recommendations.

 Recommendation                      We recommend the vice president, Engineering:

                                          3.	 Establish roles and responsibilities to ensure
                                              independence for testing and quality functions within
                                              the capital procurement process.

 Management’s                        Management agreed with our recommendation and stated
 Comments                            that completion of policies and procedures in response to
                                     recommendation 1 will help ensure roles and responsibilities
                                     of the Test, Evaluation, and Quality group are more clearly
                                     defined. Additionally, management was immediately
                                     initiating a new process to: (1) more directly include input
                                     from all relevant groups in Technology Acquisition
                                     Management, and (2) more formally document the basis and
                                     rationale for acceptance decisions.

 Evaluation of                       Management’s planned actions are responsive to our
 Management’s                        recommendation.
 Comments

 Recommendation                           4. Provide Quality with control of their budget to ensure
                                             funding is available to support Quality’s program
                                             responsibilities.

 Management’s                        Management disagreed with our recommendation stating
 Comments                            they agreed this control was important and currently exists.
                                     Management added that contrary to the report finding,
                                     program management could not unilaterally terminate
                                     needed funding for quality assurance testing against wishes
                                     of the manager, Test, Evaluation, and Quality.

 Evaluation of                       Management’s comments are not responsive to our
 Management’s                        recommendation. We agree that funding requests are
 Comments                            based on estimates from the Quality group; however,
                                     funding allocations are dependent on program
                                     management’s approval. During the audit we found




                                                             12
                                                Restricted Information
Postal Service Test, Evaluation, and Quality                                                             DA-AR-02-004



                                     examples of equipment that was not quality deployment
                                     acceptance tested5 due to insufficient funds allocated by
                                     program management. However, we do not plan to seek
                                     resolution on this recommendation.




5
    Deployment acceptance testing is a final inspection of equipment performed by Quality after deployment.


                                                            13
                                               Restricted Information
Postal Service Test, Evaluation, and Quality                            DA-AR-02-004




     APPENDIX A. COMPANIES CONTACTED FOR BENCHMARKING




                                                            14
                                               Restricted Information
Postal Service Test, Evaluation, and Quality                            DA-AR-02-004




                      APPENDIX B. MANAGEMENT’S COMMENTS




                                                            15
                                               Restricted Information
Postal Service Test, Evaluation, and Quality                            DA-AR-02-004




                                                            16
                                               Restricted Information
Postal Service Test, Evaluation, and Quality                            DA-AR-02-004




                                                            17
                                               Restricted Information
Postal Service Test, Evaluation, and Quality                            DA-AR-02-004




                                                            18
                                               Restricted Information
